No. 20-1113
IN THE

*Aureate Court of tije Wniteb *tato
AMERICAN HOSPITAL ASSOCIATION, ET AL.,
Petitioners,
v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY
AS SECRETARY OF HEALTH AND
HUMAN SERVICES,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit

PETITION FOR REHEARING

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
948 words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 23, 2021.

Colin Casey Han
Wilson-Epes Printing Co., Inc.

